me
I

CAQCKLE

2311 Douglas Street

Omaha, Nebraska 68102-1214 al Briefs
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
SHELTON BARNES,
Petitioner,

Vv.

UNITED STATES OF AMERICA,

Respondent.

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7756 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of June, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

fe otic JERAL MOTARY-State of Nebraska
RENEE J. GOSS
fe otic Exp. September 5, 2023

Notary Public

Leos Ondo, Gale

Affiant 41027
